12

CERTIFICATE OF SERVICE
The undersigned hereby certifies that on this 28th day of September, 2020, a true and
correct copy of the foregoing SUPPLEMENTAL BRIEF ON PETITION FOR WRIT OF
CERTIORARI was served upon the following defendant by Priority “Express” Mail:

Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
(202) 479-3000

St

iA*y

Larry Golden, Pro Se
740 Woodruff Rd., #1102
Greenville, South Carolina 29607
atpg-tech@charter.net

